TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Office of Appeals Errors in the
                         Handling of Collection Due Process
                              Cases Continue to Exist



                                            July 26, 2012

                               Reference Number: 2012-10-077




  This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
   and information determined to be restricted from public release has been redacted from this document.

   Redaction Legend: 1 = Tax Return/Return Information




Phone Number | 202-622-6500
E-mail Address | TIGTACommunications@tigta.treas.gov
Website       | http://www.tigta.gov
                                                 HIGHLIGHTS


OFFICE OF APPEALS ERRORS IN THE                      Determination in a Collection Due Process
HANDLING OF COLLECTION DUE                           Hearing (Form 12257 Waiver) issued to
PROCESS CASES CONTINUE TO EXIST                      taxpayers.
                                                     WHAT TIGTA RECOMMENDED
Highlights                                           TIGTA recommended that the Chief, Appeals,
                                                     provide refresher training to Appeals personnel
Final Report issued on July 26, 2012                 to reemphasize the process to follow when
                                                     determining whether a taxpayer is entitled to a
Highlights of Reference Number: 2012-10-077          Collection Due Process hearing or an Equivalent
to the Internal Revenue Service Chief of             Hearing. TIGTA also recommended that
Appeals.                                             Appeals request written guidance from
                                                     Chief Counsel that specifies what constitutes a
IMPACT ON TAXPAYERS                                  timely receipt of a taxpayer’s request for a
                                                     Collection Due Process hearing to ensure
The Collection Due Process Program was
                                                     taxpayer requests for Collection Due Process
designed to allow taxpayers a process for
                                                     hearings are processed consistently. Finally,
exercising their right to appeal when the IRS
                                                     TIGTA recommended that Appeals review and
files a Notice of Federal Tax Lien or a Notice of
                                                     correct the taxpayer accounts that were
Intent to Levy against them. Additional
                                                     identified with Collection Statute Expiration Date
improvements are needed to ensure statutory
                                                     errors and revise its guidelines to ensure
requirements are met. Misclassified hearing
                                                     impartiality is properly documented in the
requests, inaccurate collection action
                                                     Form 12257 Waiver issued to the taxpayer.
suspensions, and inconsistent documentation of
impartiality may result in taxpayers not receiving   In their response, Appeals Management agreed
their full rights during an appeal hearing.          with all of our recommendations. Appeals plans
                                                     to develop a refresher class on the topic of
WHY TIGTA DID THE AUDIT                              determining timeliness of the Collection Statute
This audit was initiated because TIGTA is            Expiration Date and Equivalent Hearing
statutorily required to determine whether the IRS    requests as well as request a written advisory
complied with the provisions of 26 United States     opinion from Chief Counsel on what constitutes
Code Sections 6320 (b) and (c) and 6330 (b)          a timely receipt of a taxpayer’s appeal request
and (c) when taxpayers exercised their rights to     for a Collection Due Process hearing. In
appeal the filing of a Notice of Federal Tax Lien    addition, Appeals corrected all Collection Statute
or the issuance of a Notice of Intent to Levy.       Expiration Date errors made on the taxpayer
                                                     accounts that TIGTA identified during this audit
WHAT TIGTA FOUND                                     and revised its guidelines to require that hearing
                                                     officers include the impartiality statement in the
Compared to our previous reviews, this year’s
                                                     Letter 4382, Closing Letter For Form 12257,
audit continues to identify the same deficiencies
                                                     that accompanies the approved Form 12257
in the IRS’s processing of Collection Due
                                                     Waiver.
Process cases as previously reported. Our
review identified that the Office of Appeals did
not always classify taxpayer requests properly
and, as a result, some taxpayers received the
wrong type of hearing. In addition, TIGTA also
identified an increase in errors relating to the
determination of the Collection Statute
Expiration Date on taxpayer accounts compared
to that identified during prior audits. TIGTA also
found that Appeals personnel continue to not
always document their impartiality in the
Form 12257, Waiver of Appeals Notice of
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 26, 2012


 MEMORANDUM FOR CHIEF, APPEALS


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Office of Appeals Errors in the Handling of
                             Collection Due Process Cases Continue to Exist (Audit # 201210010)

 This report presents the results of our statutory review of the Appeals’ Collection Due Process
 Program. The overall objective of this review was to determine whether the Internal Revenue
 Service (IRS) complied with 26 United States Code Sections 6320 (b) and (c) and 6330 (b) and
 (c) when taxpayers exercised their right to appeal the filing of a Notice of Federal Tax Lien or
 issuance of a Notice of Intent to Levy. This audit is included in our Fiscal Year 2012 Annual
 Audit Plan and addresses the major management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                                      Office of Appeals Errors in the Handling of
                                    Collection Due Process Cases Continue to Exist




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Taxpayers Did Not Always Receive the Appropriate
          Type of Hearing ............................................................................................ Page 4
                    Recommendation 1:........................................................ Page 6

                    Recommendation 2:........................................................ Page 7

          The Collection Statute Expiration Date Was Not Always
          Computed Correctly ...................................................................................... Page 7
                    Recommendation 3:........................................................ Page 8

          Hearing Officers Did Not Always Document Their
          Impartiality As Required............................................................................... Page 8
                    Recommendation 4:........................................................ Page 10

          Errors Relating to Misclassified Cases, Impartiality, and
          Collection Statute Expiration Dates Have Increased Over Time….............. Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measures............................................................... Page 18
          Appendix V – Collection Due Process Procedures....................................... Page 21
          Appendix VI – Time Periods for Collection Due Process
          and Equivalent Hearings ............................................................................... Page 23
          Appendix VII – Prior Mandatory Collection Due Process
          Audit Reports ................................................................................................ Page 24
                     Office of Appeals Errors in the Handling of
                   Collection Due Process Cases Continue to Exist



Appendix VIII – Management’s Response to the Draft Report ................... Page 25
           Office of Appeals Errors in the Handling of
         Collection Due Process Cases Continue to Exist




                 Abbreviations

CDP        Collection Due Process
CSED       Collection Statute Expiration Date
EH         Equivalent Hearing
FY         Fiscal Year
I.R.C.     Internal Revenue Code
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
                                Office of Appeals Errors in the Handling of
                              Collection Due Process Cases Continue to Exist




                                             Background

When initial contacts by the Internal Revenue Service (IRS) do not result in the successful
collection of unpaid tax, the IRS has the authority to attach a claim to a taxpayer’s assets with a
Letter 3172, Notice of Federal Tax Lien Filing and Your Rights to a Hearing Under IRC 6320
(lien).1 The IRS also has the authority to seize or levy a taxpayer’s property, such as wages or
bank accounts, to satisfy a taxpayer’s debt.2 However,
before a levy can be placed on a taxpayer’s account, the       Under Collection Due Process
IRS must issue the taxpayer a Letter 11 or Letter 1058,        provisions, taxpayers have the
Notice of Intent to Levy and Notice of Your Right to a        right to a hearing with the IRS’s
Hearing (levy).                                                Office of Appeals to appeal the
                                                                           filing of a lien and/or levy.
In January 1996, Congress modified collection activity
provisions that allowed taxpayers to appeal the filing of
a lien and proposed or actual levies.3 Further, Congress enacted legislation to protect taxpayers’
rights in the IRS Restructuring and Reform Act of 1998, 4 which gave taxpayers the right to a
hearing with the Office of Appeals (Appeals) under the Collection Due Process (CDP)
provisions. 5 Appeals is independent of other IRS offices, and its mission is to resolve tax
controversies, without litigation, on a basis which is fair and impartial to both the Federal
Government and the taxpayer.
When a taxpayer timely requests an Appeals hearing regarding the filing of a lien or the issuance
of a Notice of Intent to Levy, the taxpayer is granted a CDP hearing. However, if the taxpayer’s
request for a CDP hearing is not received within the allotted time, usually within 30 calendar
days, the taxpayer, at the discretion of Appeals, might be granted an Equivalent Hearing (EH).
The taxpayer must request an EH within one year of the issuance of the Notice of Intent to Levy
or the filing of a lien. Taxpayers have the right to petition the U.S. Tax Court if they disagree
with Appeals’ decision on a CDP hearing, which is not afforded to those taxpayers who are
granted an EH.
When Appeals makes a final decision on a taxpayer’s case, the hearing officer will issue a
Letter 3193, Notice of Determination Concerning Collection Actions Under Sections 6320 and
6330, a Letter 3210, Decision Letter Concerning Equivalent Hearing Under Section 6320

1
  Internal Revenue Code (I.R.C.) § 6321.
2
  I.R.C. § 6331.
3
  Taxpayer Bill of Rights 2, Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections
of 26 U.S.C.).
4
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
5
  See Appendix V for an explanation of the CDP and Equivalent Hearing procedures.
                                                                                                            Page 1
                                Office of Appeals Errors in the Handling of
                              Collection Due Process Cases Continue to Exist



and/or 6330, or a Letter 4382, Closing Letter For Form 12257, on closed CDP and EH cases.
The Form 12257, Waiver of Appeals Notice of Determination in a Collection Due Process
Hearing (Form 12257 Waiver), is used when the taxpayer and the IRS agree on a viable
collection alternative.6 During Fiscal Year (FY) 2011, Appeals closed 41,343 CDP cases and
10,489 EH cases.

The inventory of CDP and EH cases worked by Appeals continues to increase
Since FY 2008, Appeals has faced the challenge of rising inventories because more taxpayers are
requesting CDP hearings and EHs.7 While Appeals has closed a greater number of cases each
year, new receipts have outpaced closures since FY 2008. Case receipts for CDP/EH increased
by 65.9 percent over the four-year period with case closures increasing by 52.5 percent over the
same period. Figure 1 shows that Appeals CDP/EH receipts and closures have steadily risen
from FY 2008 through FY 2011.
                            Figure 1: Appeals Receipts and Closures




        Source: Appeals Commissioner’s Balanced Measures Report (FY 2008 through FY 2011).

The Treasury Inspector General for Tax Administration is required to determine annually
whether the IRS complied with legal guidelines and procedures for the filing of a lien or a Notice



6
  A Form 12257 Waiver is a signed agreement between the taxpayer and the IRS where the taxpayer waives the right
to a judicial review, and waives the suspension of collection action. For example, these taxpayers may have agreed
to an installment agreement, offer in compromise, or other collection alternative.
7
  For reporting purposes, Appeals combines the EH closed cases and CDP closed cases together.
                                                                                                          Page 2
                                   Office of Appeals Errors in the Handling of
                                 Collection Due Process Cases Continue to Exist



of Intent to Levy and the right of the taxpayer to appeal these actions.8 This is our twelfth annual
audit of taxpayer appeal rights.
The period for this year’s audit covered CDP and EH cases closed between October 1, 2010, and
September 30, 2011. This review was performed by contacting Appeals personnel in San
Francisco, California; Denver, Colorado; and Syracuse, New York, during the period
November 2011 through April 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




8
    26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
                                                                                             Page 3
                                 Office of Appeals Errors in the Handling of
                               Collection Due Process Cases Continue to Exist




                                       Results of Review

Our review identified continued errors relating to hearing misclassifications and proper
determination of the Collection Statute Expiration Date (CSED).9 In addition, we identified
errors by Appeals in fully documenting its impartiality relating to CDP hearings as required.
Compared to our previous reviews,10 this year’s audit found a similar number of taxpayer
requests that were misclassified. It is important that Appeals accurately determine whether the
taxpayer receives a CDP hearing or an EH because it affects the taxpayer’s right to petition the
U.S. Tax Court and the time allowed for the IRS to collect any balances owed.
There was an increase in errors relating to the proper determination of the CSED and
documentation of impartiality. When CSED dates are extended in error, the IRS is allowed
additional time to collect any balances owed by these taxpayers, which is a potential violation of
taxpayer rights. Conversely, when CSEDs are incorrectly shortened, the IRS has less time to
collect delinquent taxes, which could cause a potential loss of revenue. Finally, it is important
that a hearing officer document the statement of impartiality as required. The law requires that
taxpayers be afforded a hearing with an impartial officer who has had no prior involvement with
the tax liability.11

Taxpayers Did Not Always Receive the Appropriate Type of Hearing
Our review of two statistically valid samples of 70 CDP and 70 EH cases identified three CDP
cases (4 percent) and ***1*** (1 percent) where the IRS misclassified the type of hearing
provided to the taxpayer. This is the same number of errors that we identified in our prior
review. We project an estimated 1,772 taxpayer cases may have incorrectly received a CDP
hearing during FY 2011 instead of an EH as required. In addition, we project an estimated
150 taxpayer cases may have been incorrectly granted an EH even though the request was made
more than one year after the notice was issued.
For the three CDP cases, the taxpayer either did not timely file the request for a hearing at the
IRS address listed on the taxpayer’s correspondence within the required 30-day period **1**
*************************************1*************************************
***1***.12 Treasury Regulations require that the written request for a CDP hearing
must be sent, or hand delivered (if permitted), to the IRS office and address as directed on the

9
  The IRS generally has 10 years from the date of assessment to collect a liability owed by a taxpayer. The final
date to collect is referred to as the CSED.
10
   See Appendix VII for a list of our prior audits for FY 2008 through FY 2011.
11
   I.R.C. § 6320 and 6330(b)(3).
12
   See Appendix VI, which describes the time periods to qualify for a CDP hearing and an EH.
                                                                                                             Page 4
                                 Office of Appeals Errors in the Handling of
                               Collection Due Process Cases Continue to Exist



CDP notice.13 In addition, the Form 12153, Request for Collection Due Process or Equivalent
Hearing, also directs taxpayers to send their appeal to the address shown on their lien or levy
notice, which is generally to the collection employee initially working with the taxpayer to
resolve their outstanding tax liability. Additionally, Appeals is required to return the
Form 12153 request back to Collection as a premature referral if the taxpayer or his or her
representative fails to sign the Form 12153 request.
Because the request was mailed to the incorrect address, Collection did not receive the request
for a CDP hearing *******1***** within the required time period. Although these requests
were not timely received, Appeals granted these taxpayers a CDP hearing instead of an EH. This
provided these taxpayers with inappropriate rights and considerations, as CDP hearings allow
taxpayers the right to petition the U.S. Tax Court if they disagree with Appeals’ final
determination or decision, whereas an EH does not provide this right. Further, since these three
cases were misclassified, the IRS incorrectly extended the CSEDs on the taxpayers’ accounts.
The IRS suspends collection activity during the CDP hearing along with the CSED on the
taxpayer’s account. In contrast, an EH hearing does not result in the CSED being suspended
during the appeals process.
IRS guidelines state that upon receipt of the taxpayer’s request for a hearing, the collection
employee evaluates the timeliness of the request, performs initial case actions, builds a case file,
and then forwards the taxpayer’s request to the appropriate Appeals office. Appeals has the
authority to determine the validity, sufficiency, and timeliness of any CDP notice given by the
IRS and of any request for a CDP hearing that is made by a taxpayer. When Appeals receives
the taxpayer’s request, the hearing officer is required to confirm the accuracy of the request
information and make the final determination as to whether the request was timely received and
if the taxpayer is eligible for a CDP or EH.
**************************************1************************************
***1*****.14 Treasury Regulations require that all taxpayers who want an EH must request
the hearing within the one-year period commencing the day after the date of the CDP notice
issued under Section 6330 and that the written request for an EH must be sent, or hand delivered
(if permitted), to the IRS office and address as directed on the CDP notice.15 ****1*****
*******************************************1********************************
*****************1********************************
Appeals management agreed with our analysis of the ***1*** cases and indicated that the cases were
misclassified due to incorrect judgment on the part of hearing officers. Appeals also indicated
that they would make the appropriate corrections to the CSEDs on these taxpayers’ accounts.


13
   Treas. Reg. § 301.6330-1- Notice and opportunity for hearing prior to levy.
14
   A taxpayer must submit a written request for an EH within the one-year period starting the day after the date of
the CDP Notice of Levy.
15
   Treas. Reg. § 301.6330-1.
                                                                                                              Page 5
                            Office of Appeals Errors in the Handling of
                          Collection Due Process Cases Continue to Exist



Clarification is needed as to the date that should be used to determine if hearing
requests are timely received
**********************************1*************************************
***********************************1****************************************
***********************************1****************************************
***********************************1*************************************
***********************************1***************************************
************************************1************************************
*************************************1************************************
*************************************1**************************************
***************************************1************************************
************************1*********************.
We contacted a Collection manager ************************1******************. The
manager advised us this mailroom uses the date the taxpayer’s request is received, even if it was
sent to the wrong location and not received by the responsible Collection CDP Office. To
determine if a CDP hearing should be granted, this manager’s practice is to consider all
taxpayer’s CDP hearing requests as timely filed if their requests are timely stamped as received
in the mailroom by the due date. However, the Internal Revenue Manual (IRM) states that if the
CDP hearing request is not addressed to the correct office as indicated in the CDP notice, the
date to determine timeliness is the date the request is received by the IRS office to which the
request should have been sent.
We discussed this with Appeals management and a Chief Counsel attorney, ***1******
*****************************************1*******************************.
However, we believe that Appeals management should obtain written guidance from Chief
Counsel to confirm Appeals and Collection management’s interpretation of applicable
procedures. We are concerned that taxpayers may receive inconsistent treatment depending on
how a specific location’s Collection function and Appeals personnel determine if a CDP hearing
should be granted in situations similar to what we identified.

Recommendations
The Chief, Appeals, should:
Recommendation 1: Provide refresher training to Appeals personnel to reemphasize the
process to follow when determining whether a taxpayer is entitled to a CDP hearing or an EH.
       Management’s Response: Appeals management agreed with this recommendation.
       Appeals plans to develop a refresher class on the topic of determining timeliness of CDP
       and EH requests. This class will be provided as a continuing professional education topic
       to technical employees.

                                                                                           Page 6
                                 Office of Appeals Errors in the Handling of
                               Collection Due Process Cases Continue to Exist



Recommendation 2: Request written guidance from Chief Counsel that specifies what
constitutes timely receipt of a taxpayer’s appeal request for a CDP hearing. After Appeals
receives this guidance, it should share this information with both Appeals personnel and
Collection employees to ensure taxpayer requests for CDP hearings are processed consistently.
         Management’s Response: Appeals management agreed with this recommendation
         and will request a written advisory opinion from Chief Counsel. Upon receipt, Appeals
         plans to share the advice within Appeals and the Collection function.

The Collection Statute Expiration Date Was Not Always Computed
Correctly
Our review of a statistically valid sample of 70 CDP cases identified 16 (23 percent) cases had
an inaccurate CSED. In the previous review, we identified a total of 15 CSED errors.16 For the
16 cases we identified, the IRS incorrectly increased the CSED time period in 13 of the CDP
cases, allowing the IRS additional time it should not have had to collect the delinquent taxes. In
the remaining three cases, the IRS incorrectly decreased the time the IRS had to collect the
delinquent taxes. We project a total of 9,450 of the 41,343 CDP cases closed in FY 2011 may
have an incorrect CSED (7,678 taxpayers had their time extended in error and 1,772 taxpayers
had their collection time shortened).
The IRS generally has 10 years from the date of assessment to collect a liability owed by a
taxpayer. The final date to collect is referred to as the CSED. Because the IRS usually stops
collection activity during the Appeals process, the CSED is temporarily suspended during a CDP
hearing. Specifically, the IRS suspends the 10-year statute of limitations from the date of the
CDP hearing request until the date the Appeals determination is made final or the date the IRS
receives the taxpayer withdrawal request. When the IRS suspends the collection statute for a
period longer than its policy allows, it potentially violates taxpayer rights. Conversely, when
CSEDs are incorrectly shortened, the IRS has less time to collect delinquent taxes, which could
cause the IRS a potential loss of revenue.
Incorrect CSED dates resulted from IRS employees incorrectly calculating the suspension start
date.17 Our review identified that the code needed to designate the end of the collection statute
suspension was not input or the suspension end date was incorrect. The statute suspension is
systemically controlled on the Integrated Data Retrieval System.18 One code is entered to start

16
   Treasury Inspector General for Tax Administration, Ref. No. 2011-10-062, Additional Improvements Are Needed
in the Office of Appeals Collection Due Process Program to Ensure Statutory Requirements Are Met (Aug. 2011).
17
   The statute of limitations is suspended from the date the IRS receives a timely filed request for a CDP hearing to
the date the taxpayer’s withdrawal is received by the IRS or the date the determination from Appeals becomes final,
including any court appeals.
18
   The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 7
                                Office of Appeals Errors in the Handling of
                              Collection Due Process Cases Continue to Exist



the suspension and another is entered to stop the suspension and restart the statute period.
Generally, the code input to suspend the collection statute is entered by the Collection function;
however, in certain instances, Appeals is responsible for the input. Upon completion of each
CDP hearing, Appeals is responsible for entering the code to remove the suspension of the
statute period. The Integrated Data Retrieval System will systemically recalculate the CSED
based on the dates entered for the two codes (which reflect the length of the Appeals hearing plus
expiration of the time period for seeking judicial review or the exhaustion of any rights to appeal
following judicial review).
Appeals management informed us they developed a job aid exhibit to assist its processing
employees in more accurately determining the correct CSEDs on taxpayer accounts. We
confirmed that the Appeals’ IRM was revised with the new job aid exhibit on
December 27, 2011, which was after the cases we identified were closed by Appeals personnel.

Recommendation
Recommendation 3: The Chief, Appeals, should review and correct the 16 taxpayer accounts
that we identified with CSED errors.
        Management’s Response: Appeals management agreed with this recommendation.
        Appeals corrected the CSED errors made on the 16 taxpayer accounts that we identified
        during this audit.

Hearing Officers Did Not Always Document Their Impartiality As
Required
Our review of two statistically valid samples of 70 CDP and 70 EH cases identified that Appeals
hearing officers documented impartiality in the CDP Notices of Determination and EH Decision
Letters issued to the taxpayers as required for all of the cases we reviewed.19 However, we did
identify seven (10 percent) of the 70 CDP sample cases where the impartiality statement was not
also included on the Form 12257 Waiver. In addition, we identified three EH cases (4 percent)
where the required impartiality statement was not also included **************1*********
******************************************1******************************.
We project an estimated 4,134 of the 41,343 CDP cases and 450 of the 10,489 EH cases closed
in FY 2011 may not contain the required impartiality statement. When the impartiality statement
is not documented as required, there is a risk the hearing officer had prior involvement in the
taxpayer’s case and a potential lack of independence. The 10 errors we identified represent an
increase from our prior review, which identified nine cases without an impartiality statement


19
 The IRS is required by statute to issue a Letter 3193, Notice of Determination Concerning Collection Actions
Under Sections 6320 and 6330, at the conclusion of a CDP hearing.
                                                                                                          Page 8
                                Office of Appeals Errors in the Handling of
                              Collection Due Process Cases Continue to Exist



fully documented as required.20 Omitting this statement does not mean that hearing officers were
not impartial or that taxpayers received an unfair hearing.
The law requires that a CDP hearing be conducted by an impartial hearing officer who has had
no prior involvement with the unpaid tax.21 In addition, the Appeals IRM extends this
requirement to all hearing officers, including those working EHs. The IRM specifies that each
hearing officer must document “no prior involvement” in the Case Activity Record during the
initial analysis of the taxpayer’s appeal. In addition to documenting the Case Activity Record,
hearing officers are also required to document their impartiality in the letters and waivers issued
to taxpayers at the conclusion of the appeal:
        Notice of Determination – issued at the conclusion of a CDP hearing.
        Decision Letter – issued at the conclusion of an EH.
        Form 12257 Waiver – issued at the conclusion of a CDP or EH hearing when agreement
         was reached with the taxpayer and the taxpayer waived judicial review rights.
In response to a previous audit, Appeals implemented a computer programming enhancement to
its Appeals Centralized Database System that prompts employees to document impartiality in the
Case Activity Records.22 In last year’s audit, we identified this systemic control may not always
be working as intended and recommended an additional programming change to correct potential
deficiencies. This programming change was not in place during the period applicable to the
cases we reviewed because Appeals management agreed to complete this programming change
by June 2012.
Additionally, Appeals revised its IRM in December 2010 requiring hearing officers to document
the impartiality statement on the Form 12257 Waiver. For example, if the taxpayer agrees to an
installment agreement during an appeal, the hearing officer may ask the taxpayer to sign a
Form 12257 Waiver. Previously, the Appeals IRM stated that if a hearing officer secured a
Form 12257 Waiver from the taxpayer, the impartiality statement was only required in the Case
Activity Record. However, we found that Appeals’ procedures in effect during the review
contained inconsistent guidance about the requirement to document impartiality when the
taxpayer signs a Form 12257 Waiver. In one section of the IRM, hearing officers are directed to
document the impartiality statement on the Form 12257 Waiver. However, in another section,
the IRM states that the hearing officer only needs to document the impartiality statement in the
Case Activity Record when a Form 12257 Waiver is secured.



20
   Treasury Inspector General for Tax Administration, Ref. No. 2010-10-075, The Office of Appeals Has Improved
Compliance Within Its Collection Due Process Program; However, Some Improvement Is Still Needed (July 2010).
21
   Per I.R.C. §§ 6320 and 6330, a taxpayer may waive this requirement.
22
   The Appeals Centralized Database System is a computerized case control system used to control and track cases
throughout the appeals process.
                                                                                                         Page 9
                           Office of Appeals Errors in the Handling of
                         Collection Due Process Cases Continue to Exist



Appeals management informed us of their plan to modify the closing letter that accompanies the
Form 12257 Waiver to include an impartiality statement for future notices. At the end of our
fieldwork, Appeals Management also informed us of their plan to review their IRM to ensure
consistency for impartiality statements and Form 12257 Waivers.

Recommendation
Recommendation 4: The Chief, Appeals, should revise Appeals internal guidelines to ensure
impartiality is properly documented on the Form 12257 Waiver.
       Management’s Response: Appeals management agreed with this recommendation.
       On March 29, 2012, Appeals published a revised IRM that now requires hearing officers
       to include the impartiality statement in the cover Letter 4382 that accompanies the
       approved Form 12257 Waiver.

Errors Relating to Misclassified Cases, Impartiality, and Collection
Statute Expiration Dates Have Increased Over Time
Trending analysis of the results of our current and past reviews of CDP case processing during
the period FY 2008 through FY 2012 identified an increase in misclassified cases, incorrect
CSEDs, and impartiality errors.

Misclassified cases have increased since FY 2009
In FY 2008 and FY 2009, we found that Appeals properly determined whether taxpayers should
receive either a CDP hearing or an EH in the sample of cases we reviewed. However, we have
identified more misclassified cases during our audits since FY 2009. Figure 2 shows the number
of errors and the estimated number of taxpayer cases that may have been misclassified in
FY 2010 through FY 2012.




                                                                                         Page 10
                               Office of Appeals Errors in the Handling of
                             Collection Due Process Cases Continue to Exist



                   Figure 2: Misclassified Cases and Potential Taxpayer
                           Cases Affected FY 2008 Through 2012

                                              Number of
                      Fiscal Year            Misclassified               Potential
                       of Audit             Cases Identified          Taxpayer Cases
                           2008                      0                            0 
                           2009                      0                            0 
                           2010                      **1**                     410 
                           2011                      4                         947 
                           2012                      4                       1,922 
                Source: Our review of 140 cases each year during FY 2008 through FY 2012.

Similar to the explanation provided this year relating to the misclassification errors we identified,
Appeals management indicated in last year’s audit23 that the misclassification was generally due
to incorrect judgment on the part of the case hearing officers. We will continue to monitor this
situation in future audits to determine whether our recommendations this year will result in less
misclassified cases by Appeals personnel.

Incorrect computation of Collection Statute Expiration Dates continues to
increase
During our review in FY 2008, we found that Appeals properly computed the CSEDs for all of
the cases we reviewed. However, we have identified an increasing number of cases with
incorrect CSEDs since FY 2008. Figure 3 shows that the number of cases with incorrect CSEDs
has increased from ***1*** to 16 cases from FY 2009 to FY 2012. Accordingly, the number of
taxpayers potentially affected by the CSED errors has also grown.




23
  Treasury Inspector General for Tax Administration, Ref. No. 2011-10-062, Additional Improvements Are Needed
in the Office of Appeals Collection Due Process Program to Ensure Statutory Requirements Are Met (Aug. 2011).
                                                                                                     Page 11
                               Office of Appeals Errors in the Handling of
                             Collection Due Process Cases Continue to Exist



                      Figure 3: Cases Identified With Incorrect CSEDs
                                 FY 2008 Through FY 2012

                                     Cases With           Cases With           Potential
                  Fiscal Year        Overstated           Understated          Taxpayer
                   of Audit           CSEDs                 CSEDs               Cases
                  2008                     0                    0                       0 
                  2009                     **1**                0                    100 
                  2010                     5                    5                  3,784 
                  2011                     9                    6                  7,990 
                  2012                    13                    3                  9,450 
              Source: Our review of 140 cases each year during FY 2008 through FY 2012.

In response to our FY 2008 report,24 Appeals management agreed to revise their written
guidance, update templates, provide training to hearing officers, and develop and implement a
procedure to immediately correct taxpayer accounts when hearing officers identify missing
computer codes for suspension of collection activity. In addition, Appeals management agreed
in FY 2011 to develop a job aid to assist processing employees in more accurately determining
the correct suspension dates. This job aid was not prepared until after the cases selected during
this audit were closed by Appeals personnel.25

Inconsistency of documenting impartiality continues to increase
During the past five reviews, we have identified several cases without the required impartiality
statements documented in Case Activity Records and in the letters and waivers sent to taxpayers.
During FY 2009, we identified ***1*** without the required impartiality statement.
However, the number of impartiality errors doubled in FY 2012 (from five to 10 cases)
compared to FY 2008. Figure 4 shows the number of impartiality errors and the potential
number of taxpayer cases affected from FY 2008 through FY 2012.




24
   Treasury Inspector General for Tax Administration, Ref. No. 2008-10-160, The Office of Appeals Continues to
Show Improvement in Processing Collection Due Process Cases (Sept. 2008).
25
   Treasury Inspector General for Tax Administration, Ref. No. 2011-10-062, Additional Improvements Are Needed
in the Office of Appeals Collection Due Process Program to Ensure Statutory Requirements Are Met (Aug. 2011).
                                                                                                      Page 12
                               Office of Appeals Errors in the Handling of
                             Collection Due Process Cases Continue to Exist



                    Figure 4: Impartiality Errors and Potential Taxpayer
                         Cases Affected FY 2008 Through FY 2012

                                                Impartiality
                        Fiscal Year               Errors                  Potential
                         of Audit                Identified            Taxpayer Cases
                            2008                      5                        1,351 
                            2009                      **1**                      386 
                            2010                      8                        2,029 
                            2011                      9                        2,426 
                            2012                     10                        4,584 
                 Source: Our review of 140 cases each year during FY 2008 through FY 2012.

In response to our FY 2007 report,26 Appeals management agreed to revise written guidance and
provide training to hearing officers for documenting impartiality. In our FY 2010 report,27 we
recommended that Appeals management ensure that a programming enhancement implemented
on the Appeals Centralized Database System is effective in assisting employees working CDP
cases to document prior involvement with taxpayers. In last year’s audit, we identified this
systemic control may not always be working as intended and recommended an additional
programming change to correct potential deficiencies. Appeals management agreed to complete
this revised programming change by June 2012.




26
   Treasury Inspector General for Tax Administration, Ref. No. 2007-10-139, The Office of Appeals Has Improved
Its Processing of Collection Due Process Cases (Sept. 2007).
27
   Treasury Inspector General for Tax Administration, Ref. No. 2010-10-075, The Office of Appeals Has Improved
Compliance Within Its Collection Due Process Program; However, Some Improvement Is Still Needed (July 2010).
                                                                                                      Page 13
                                 Office of Appeals Errors in the Handling of
                               Collection Due Process Cases Continue to Exist



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with
26 United States Code Sections (§§) 6320(b) and (c) and 6330(b) and (c) when taxpayers
exercised their right to appeal the filing of a Notice of Federal Tax Lien or issuance of a Notice
of Intent to Levy. To accomplish this objective, we:
I.       Determined whether any new procedures or processes have been developed since the
         prior Treasury Inspector General for Tax Administration statutory review.
II       Selected a statistically valid sample of closed CDP and EH cases, obtained the Appeals
         case file and administrative files, and determined if Appeals had completed case files.
         A. Obtained an extract of the Appeals Centralized Database System1 file maintained at
            the Treasury Inspector General for Tax Administration Data Center Warehouse2 of
            41,343 CDP and 10,489 EH cases closed during FY 2011 (October 1, 2010, through
            September 30, 2011). We validated the extract by reviewing the appropriateness of
            data within fields requested and comparing population totals to information obtained
            from Appeals officials.
         B. Selected and secured CDP and EH cases for our two samples. We selected statistical
            attribute samples of 70 CDP cases (population of 41,343) and 70 EH cases
            (population of 10,489). We used a confidence level of 90 percent, a precision level of
            ±6 percent, and an expected error rate of 10 percent to determine these sample sizes.
            We selected statistical samples because we wanted to project our results to the entire
            population of CDP and EH cases.
         C. Determined whether the Appeals case files and/or administrative files contained the
            required documentation per internal guidelines.
III.     Determined whether Appeals’ CDP and EH cases were classified correctly using the CDP
         and the EH samples selected in Step II.B.




1
  The Appeals Centralized Database System is a computerized case control system used to control and track cases
throughout the appeals process.
2
  The Data Center Warehouse is an architecture used to maintain critical historical data that has been extracted from
operational data storage and transformed into formats accessible to the Treasury Inspector General for Tax
Administration analytical community.
                                                                                                            Page 14
                                Office of Appeals Errors in the Handling of
                              Collection Due Process Cases Continue to Exist



        A. Determined if the CSED was calculated correctly on the taxpayer’s account on the
           Integrated Data Retrieval System3 based on the type of hearing granted.
IV.     Determined whether Appeals was in compliance with 26 United States Code §§ 6320(b)
        and (c) and 6330(b) and (c) using the CDP and the EH samples selected in Step II.B. by
        reviewing case file information to determine whether Appeals documented that the
        taxpayer was provided with an impartial hearing officer or waived this requirement
        [26 United States Code §§ 6320(b)(3) and 6330(b)(3)].
V.      Determined whether CDP and EH accounts were properly coded on the Integrated Data
        Retrieval System.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies and procedures for classifying
CDP and EH cases, ensuring hearing officers met the criteria specified in 26 United States Code
§§ 6320 and 6330, and reviewing applicable computer codes on the Integrated Data Retrieval
System for CDP and EH cases. We evaluated these controls by selecting a sample of CDP and
EH cases, reviewing case documentation, and discussing potential exception cases with Appeals
officials.




3
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 15
                         Office of Appeals Errors in the Handling of
                       Collection Due Process Cases Continue to Exist



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Mark A. Judson, Lead Auditor
Mary F. Herberger, Senior Auditor
William Simmons, Senior Auditor
John M. Jarvis, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                  Page 16
                          Office of Appeals Errors in the Handling of
                        Collection Due Process Cases Continue to Exist



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP:TP:SS




                                                                         Page 17
                                Office of Appeals Errors in the Handling of
                              Collection Due Process Cases Continue to Exist



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 1,772 CDP case files contain hearing requests
    that were received late and were not properly classified as an EH case (see page 4).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the Appeals Centralized Database
System1 and identified a population of 41,343 CDP cases that were closed in FY 2011. We
selected a simple random sample of 70 CDP cases and found that three of these CDP case files
contained a taxpayer CDP request that was misclassified. We estimate that 4.29 percent of the
cases in the population (1,772 CDP case files) may have contained misclassified CDP taxpayer
requests. When CDP cases are misclassified, taxpayers receive hearing rights to which they are
not legally entitled. Using the Exact Binomial Method, we are 90 percent confident that the true
exception rate is between 1.98 percent and 12.60 percent.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 150 EH case files contain hearing requests that
    were received more than one year after the Notice of Intent to Levy and were inappropriately
    provided an EH (see page 4).

Methodology Used to Measure the Reported Benefit:
For the EH sample, we used a computer extract from the Appeals Centralized Database System
and identified 10,489 EH cases that were closed in FY 2011. We selected a simple random
sample of 70 EH cases and found that ******************1****************************
***********1*******. We estimate that 1.43 percent of the cases in the population (150 EH
case files) may have contained misclassified taxpayer requests for which Appeals may have



1
  The Appeals Centralized Database System is a computerized case control system used to control and track cases
throughout the appeals process.
                                                                                                        Page 18
                           Office of Appeals Errors in the Handling of
                         Collection Due Process Cases Continue to Exist



improperly provided an EH. Using the Exact Binomial Method, we are 90 percent confident that
the true exception rate is between 0.07 percent and 6.60 percent.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 7,678 CDP case files in which taxpayers had
    CSEDs that were inappropriately extended longer than the length of the hearing (see page 7).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the Appeals Centralized Database System
and identified a population of 41,343 CDP cases that were closed in FY 2011. We selected a
simple random sample of 70 CDP cases and found 13 of these CDP case files contained
instances in which the taxpayer’s CSED had been suspended longer than the length of the CDP
hearing. We estimate that 18.57 percent of the cases in the population (7,678 CDP case files)
had an incorrect CSED posted to taxpayer records. A CSED extended in error to a taxpayer
account provides the IRS more time than legally allowed to collect the delinquent taxes. Using
the Normal Approximation Method, we are 90 percent confident that the true exception rate is
between 10.88 percent and 26.27 percent.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; 1,772 CDP case files indicated taxpayers had CSEDs that
    were not correctly extended for the length of the CDP hearing (see page 7).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the Appeals Centralized Database System, we identified a
population of 41,343 CDP cases that were closed in FY 2011. We selected a simple random
sample of 70 CDP cases and found three of these CDP case files contained instances in which
the taxpayer’s CSED was not correctly extended for the length of the CDP hearing. We estimate
that 4.29 percent of the cases in the population (1,772 CDP case files) had an incorrect CSED
posted to taxpayer records. A CSED shortened in error to a taxpayer account provides the IRS
less time than legally allowed to collect the delinquent taxes, which may result in the loss of
revenue for the IRS. Using the Exact Binomial Method, we are 90 percent confident that the true
exception rate is between 1.18 percent and 10.71 percent.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 4,134 CDP case files did not contain the
    impartiality statement documented on the Form 12257 Waiver issued to the taxpayer (see
    page 8).



                                                                                        Page 19
                           Office of Appeals Errors in the Handling of
                         Collection Due Process Cases Continue to Exist



   Taxpayer Rights and Entitlements – Potential; 450 EH case files did not contain the
    impartiality statement documented on the Form 12257 Waiver issued to the taxpayer or in the
    Case Activity Record (see page 8).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the Appeals Centralized Database System
and identified a population of 41,343 CDP cases that were closed in FY 2011. We selected a
simple random sample of 70 CDP cases and found that seven of these CDP case files did not
contain the required impartiality statement on the Form 12257 Waiver. We estimate that
10 percent of the cases in the population (4,134 CDP case files) did not contain the required
impartiality statement. If a hearing officer does not document the determination notice with a
statement of his or her impartiality, taxpayer rights may be affected because there is a risk of
prior involvement and a potential lack of independence. Using the Normal Approximation
Method, we are 90 percent confident that the true exception rate is between 4.06 percent and
15.94 percent.
For the EH sample, we used a computer extract from the Appeals Centralized Database System
and identified 10,489 EH cases that were closed in FY 2011. We selected a simple random
sample of 70 EH cases and found that three of these EH case files did not contain the required
impartiality statement on the Form 12257 Waiver or Case Activity Record. We estimate that
4.29 percent of the cases in the population (450 EH case files) did not contain the required
impartiality statement. Using the Exact Binomial Method, we are 90 percent confident that the
true exception rate is between 1.18 percent and 10.71 percent.




                                                                                        Page 20
                            Office of Appeals Errors in the Handling of
                          Collection Due Process Cases Continue to Exist



                                                                                    Appendix V

                 Collection Due Process Procedures

The IRS is required to notify taxpayers in writing that a lien has been filed or when it intends to
levy. A taxpayer is allowed to appeal the filing of the lien or proposed levy action through the
CDP by filing a hearing request. This hearing request must be received within 30 calendar days
plus five business days of the filing of the lien or within 30 calendar days of the date of the
Notice of Intent to Levy. If a taxpayer’s hearing request is submitted on time, the IRS will
suspend all collection efforts and the Office of Appeals (Appeals) will provide the taxpayer a
CDP hearing. If a taxpayer’s hearing request is not submitted timely, Appeals has discretionary
authority to provide the taxpayer an EH and consider the same issues as in a CDP hearing;
however, the IRS is not required to suspend collection action, and the taxpayer does not have the
right to a judicial review.
Taxpayers are entitled to one hearing per tax period for which a lien or Notice of Intent to Levy
has been issued. The hearing is conducted by an appeals officer or settlement officer (hearing
officer) who has had no prior involvement with the unpaid tax. During the hearing, the hearing
officer must verify whether the requirements of all applicable laws or administrative procedures
related to the lien or Notice of Intent to Levy were met. The hearing officer must also address
any issues the taxpayer may raise relevant to the unpaid tax, the filing of the lien, or the proposed
levy, such as whether the taxpayer is an innocent spouse; determine if collection actions were
appropriate; and decide if other collection alternatives would facilitate the payment of the tax.
The hearing officer must determine whether any proposed collection action balances the need for
efficient collection of taxes with the taxpayer’s legitimate concerns. The taxpayer may not raise
an issue that was considered at a prior administrative or judicial hearing if the taxpayer
participated meaningfully in the prior proceeding.
At the conclusion of a hearing, Appeals provides the taxpayer a letter with the hearing officer’s
findings, agreements reached with the taxpayer, any relief provided to the taxpayer, and any
actions the taxpayer and/or the IRS are required to take. For a CDP case, the taxpayer receives a
Letter 3193, Notice of Determination Concerning Collection Actions Under Sections 6320 and
6330, which provides an explanation of the right to a judicial review. If the taxpayer disagrees
with the Appeals decision, he or she may petition the courts. For an EH case, the taxpayer
receives a Letter 3210, Decision Letter Concerning Equivalent Hearing Under Section 6320
and/or 6330. If the taxpayer disagrees with the Appeals decision in an EH, he or she may not
petition the courts. For both applicable CDP and EH cases, the taxpayer may receive a
Form 12257, Waiver of Appeals Notice of Determination in a Collection Due Process Hearing,
when the taxpayer agrees with Appeals, waives the right to a judicial review, and waives the
suspension of collection action.

                                                                                            Page 21
                           Office of Appeals Errors in the Handling of
                         Collection Due Process Cases Continue to Exist



The CDP or EH case is reviewed by the hearing officer’s manager at the completion of the case
to evaluate whether the hearing officer followed all requirements and procedures.
After Appeals has made a determination on a case, if the taxpayer has a change in circumstances
that affects the Appeals determination or if the Collection function does not carry out the
determination, the taxpayer has the right to return to Appeals. The Appeals office that made the
original determination generally retains jurisdiction over the case.




                                                                                         Page 22
                                Office of Appeals Errors in the Handling of
                              Collection Due Process Cases Continue to Exist



                                                                                              Appendix VI

         Time Periods for Collection Due Process and
                    Equivalent Hearings


Taxpayers must appeal within certain deadlines to qualify for either a CDP hearing or an EH,
depending on whether the taxpayer is appealing a proposed levy or a tax lien.1

Collection Due Process Deadlines
     Lien Notice – A request for a CDP hearing for a Federal tax lien filing must be postmarked
    by the date indicated in the Letter 3172, Notice of Federal Tax Lien Filing and Your Rights to
    a Hearing Under IRC 6320 (lien notice).
     Levy Notice – A request for a CDP hearing for a levy must be postmarked within 30 days
    after the date of the Letter 11/1058, Notice of Intent to Levy and Notice of Your Right to a
    Hearing (levy notice).

Equivalent Hearing Deadlines
Taxpayers that miss the deadline for a CDP hearing may request an EH within the following time
periods:
    Lien Notice – one year plus five business days from the filing date of the Notice of Federal
    Tax Lien.
     Levy Notice – one year from the date of the levy notice.

Timeliness Considerations
Any written request for a CDP hearing should be filed at the address indicated on the notice. If
the request is not sent to the correct address, it must be received by the correct office within the
30-day period in order to be timely.




1
 Form 12153, Request for a Collection Due Process Hearing (Rev. 3-2011), explains the deadlines for requesting a
CDP hearing or an EH. Regulations also specify that the written request for a CDP hearing must be sent, or hand
delivered (if permitted), to the IRS office and address as directed on the CDP Notice (26 CFR § 301.6330–1, Q C-6,
April 1, 2011).
                                                                                                         Page 23
                            Office of Appeals Errors in the Handling of
                          Collection Due Process Cases Continue to Exist



                                                                                Appendix VII

                        Prior Mandatory Collection
                        Due Process Audit Reports

Below is a list of the prior Treasury Inspector General for Tax Administration audits of the
Appeals’ Collection Due Process performed during FY 2008 through FY 2011:

 FY 2008 – Treasury Inspector General for Tax Administration, Ref. No. 2008-10-160,
                The Office of Appeals Continues to Show Improvement in Processing Collection
                Due Process Cases (Sept. 2008).


 FY 2009 – Treasury Inspector General for Tax Administration, Ref. No. 2009-10-126,
                The Office of Appeals Continues to Improve Compliance With Collection Due
                Process Requirements (Sept. 2009).


 FY 2010 – Treasury Inspector General for Tax Administration, Ref. No. 2010-10-075,
                The Office of Appeals Has Improved Compliance Within Its Collection Due
                Process Program; However, Some Improvement Is Still Needed (July 2010).


 FY 2011 – Treasury Inspector General for Tax Administration, Ref. No. 2011-10-062,
                Additional Improvements Are Needed in the Office of Appeals Collection Due
                Process Program to Ensure Statutory Requirements Are Met (Aug. 2011).




                                                                                          Page 24
          Office of Appeals Errors in the Handling of
        Collection Due Process Cases Continue to Exist



                                                Appendix VIII


Management’s Response to the Draft Report




                                                         Page 25
  Office of Appeals Errors in the Handling of
Collection Due Process Cases Continue to Exist




                                                 Page 26
  Office of Appeals Errors in the Handling of
Collection Due Process Cases Continue to Exist




                                                        

                                                 Page 27
